December 28, 2009

GLORIA E. TYSON
MANAGER, CHICAGO CUSTOMER SERVICE DISTRICT

SUBJECT: Audit Report – Postal Vehicle Service Transportation Routes –
         Cardiss Collins Processing and Distribution Center
         (Report Number NL-AR-10-002)

This report presents the results of our audit of the Cardiss Collins Processing and
Distribution Center’s (P&DC) Postal Vehicle Service (PVS) transportation routes
(Project Number 09XG028NL000). Our objectives were to determine whether selected
PVS vehicle operations were effective and economical. The report is the ninth in a
series of reports responding to a request from the U.S. Postal Service’s vice president,
Network Operations, for audit work in this area. See Appendix A for additional
information about this audit.

Conclusion

The Cardiss Collins P&DC could more effectively manage PVS transportation
processes and schedules, thereby reducing driver workhours as well as associated fuel
use and damage claims. Once this occurs, we estimate the Postal Service could save
about $18.3 million over 10 years. We also observed that PVS drivers were not
consistently restraining mail and equipment for transportation as required nor
adequately securing some parked mail hauling vehicles.

Excess Workhours and Associated Cost Reductions

Cardiss Collins P&DC officials were not effectively managing PVS transportation
processes and schedules as evidenced by unassigned driver time, duplicate trips, and
underutilized trips. This occurred because management did not conduct schedule
reviews nor vehicle utilization reviews. We concluded that officials could remove 45,688
excess workhours from existing PVS schedules as well as reduce related fuel costs and
damage claims, thereby saving about $18.3 million over a 10-year period. The
reduction in PVS transportation fuel use would also help achieve fuel consumption
goals in the Postal Service’s National Energy Plan. See Appendix B for our detailed
analysis of this topic.
Postal Vehicle Service Transportation Routes –                                                               NL-AR-10-002
 Cardiss Collins Processing and Distribution Center



We recommend the manager, Chicago Customer Service District:

1. Ensure that Cardiss Collins Processing and Distribution Center managers follow
   prescribed fleet management procedures for making postal vehicle service
   schedules effective, including conducting schedule and vehicle utilization reviews.

2. Eliminate 43,264 workhours already agreed to by local and area management from
   postal vehicle service trip schedules.

3. Reassess the remaining 2,424 workhours and eliminate the workhours as indicated
   by the reassessment, or document the reasons for retaining the workhours.

Management’s Comments

Management agreed with our findings and recommendations. Management committed
to annual reviews of PVS operations by following the Postal Service’s prescribed fleet
management procedures. In addition, management agreed to reduce PVS trip
schedules by 43,264 workhours and reassess the remaining 2,424 scheduled
workhours identified in our report. Management is also considering additional savings
opportunities within PVS operations. See Appendix D for management’s comments in
their entirety.

Other Matters – Safety Concerns

We observed mail and equipment being transported on Cardiss Collins P&DC PVS
transportation that were not consistently restrained according to established safety
policies.1 Improperly restrained mail and equipment can lead to accidents, property
damage, undue liability, and unwarranted costs for the Postal Service. We also
observed drivers inconsistently using chock blocks2 to secure mail hauling vehicles
parked at the loading dock. As required by Postal Service policy,3 chock blocks are
used to prevent accidents generally caused by the unanticipated movement of vehicles
away from the dock before completion of loading and unloading. Drivers are required to
chock the tires once they have parked at the loading dock. Neither of the safety policies
referred to above were being enforced by local officials. See Appendix B for our
detailed analysis of this topic.




1
  Logistics Order LO200407, dated April 16, 2004, prescribes policies for safe loading and proper restraint during
transportation of mail to facilities. In particular, the order states, “All vehicles transporting containers and pallets must
have the load secured with two restraining devices approximately every ten (10) feet.”
2
  Chock blocks are wedges of sturdy material placed behind a vehicle's wheels to prevent accidental movement.
3
  Standard Operating Procedure: Receiving and Dispatching Vehicles November 7, 2007, states, “The driver backs
the vehicle to the door or platform space, sets the brake, shuts off the engine and affixes the chock block(s). If chock
block(s) is missing, the driver is to notify the expeditor/platform personnel.”




                                                              2
Postal Vehicle Service Transportation Routes –                              NL-AR-10-002
 Cardiss Collins Processing and Distribution Center

We recommend the manager, Chicago Customer Service District:

4. Ensure that Cardiss Collins Processing and Distribution Center management issues
   a memorandum to drivers enforcing load restraint policies for postal vehicle service
   trips and provide oversight of load restraint processes.

5. Ensure that Cardiss Collins Processing and Distribution Center management issues
   a memorandum to drivers requiring their compliance with Postal Service policies and
   periodically monitor and enforce compliance regarding the use of chock blocks by
   postal vehicle service motor vehicle operators.

Management’s Comments

Management agreed with our findings and recommendations. By December 31, 2009,
management will issue memorandums to Cardiss Collins P&DC PVS drivers
highlighting postal load restraint processes and the requirements for using chock
blocks. Management will perform compliance checks through dock observations, safety
talks, and daily walk throughs.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to all the recommendations and the corrective actions should
resolve the issues identified in the report.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                                      3
Postal Vehicle Service Transportation Routes –            NL-AR-10-002
 Cardiss Collins Processing and Distribution Center



cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Jo Ann Feindt
    Cynthia F. Mallonee
    Pamela S. Grooman
    Sally K. Haring




                                                      4
Postal Vehicle Service Transportation Routes –                                              NL-AR-10-002
 Cardiss Collins Processing and Distribution Center


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service transportation includes both nationwide network transportation between
cities and major facilities as well as delivery transportation between local post offices
and neighborhood delivery and pickup points. Network transportation using Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as bulk mail centers or
P&DCs in or near metropolitan areas. PVS operations are normally conducted within
50 miles of the 162 Postal Service facilities with PVS operations. PVS drivers drive
about 150 million miles every year. Because PVS operations are local, they are
managed at the facility level under guidance from district, area, and headquarters
transportation officials.

PVS is capital and personnel intensive. PVS capital assets include approximately
1,900 cargo vans, 2,200 tractors, and 4,100 trailers. Employees service and repair
these vehicles at 319 Postal Service vehicle maintenance facilities (VMFs), VMF4
auxiliaries, and local commercial garages nationwide. PVS currently involves about
10,000 employees, including 7,919 uniformed drivers, 604 administrative support
personnel, and 812 managers. The American Postal Workers Union represents PVS
drivers and support personnel.




                           The Cardiss Collins P&DC is located at 433 W. Harrison Street,
                                     Chicago Il. Picture taken August 6, 2009.

PVS operations typically include:

          Transportation to and from major facilities or local post offices.

          Transportation to and from major commercial business mailers.


4
    A VMF Auxiliary is an extension of a VMF.




                                                         5
Postal Vehicle Service Transportation Routes –                                 NL-AR-10-002
 Cardiss Collins Processing and Distribution Center


       Yard operations, defined as the movement of trailers and equipment in or around
        a facility yard.

OBJECTIVES, SCOPE, AND METHODOLOGY

The vice president, Network Operations, requested that we audit PVS operations
nationwide. Because individual facilities control PVS operations, we localized our audit
approach. This report focuses on PVS operations at the Cardiss Collins P&DC in the
Postal Service’s Great Lakes Area. The objectives of our audit were to determine
whether PVS operations were effective and economical.

During our work, we visited the Cardiss Collins P&DC, other regional facilities, and local
post offices. We reviewed relevant Postal Service policies and procedures, interviewed
managers and employees, and observed and photographed operations. We evaluated
the type of mail carried, and considered on-time service standards. We examined the
cost of PVS operations, including the cost of PVS personnel, fuel, and damage claims.
We identified unscheduled time and trip duplications and analyzed potential trip
consolidations.

Using Postal Service computer-generated data and other records, we analyzed
218 Cardiss Collins P&DC driver schedules, identified 404,462 workhours associated
with those schedules, and evaluated individual trips and trip load volume. We
conducted the analysis to determine whether management could reduce workhours and
labor costs. We analyzed driver assignments and determined whether drivers made
duplicate or unproductive trips. We also reviewed the fuel reduction initiatives for Postal
Service-owned vehicles as contained in the Postal Service’s National Energy Plan and
determined whether our recommendations impacted the initiatives.

We conducted this performance audit from July through December 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on November 16, 2009, and included
their comments where appropriate.

We did not audit or comprehensively validate the computer-generated data used in our
analyses; however, we noted several data and other weaknesses that limited our work.
For example, some computer records had missing data and inaccurate load volumes.
Although these limitations constrained our work, we were able to compensate by
applying alternate audit procedures, including observation, physical inspection, and
discussion with appropriate officials. We also applied conservative principles to our
workhour and cost reduction estimates.




                                                      6
Postal Vehicle Service Transportation Routes –                                             NL-AR-10-002
 Cardiss Collins Processing and Distribution Center


PRIOR AUDIT COVERAGE

At the request of the vice president, Network Operations, the OIG has previously
worked with the Postal Service to reduce PVS costs. As indicated by the chart below,
since March 2007, we have issued eight audit reports that identified labor and other
potential savings exceeding $53.5 million. Management agreed with all our
recommendations. This report used the same methodology and had comparable
findings.

                                                                                             Monetary
                                                          Report                              Impact
                 Report Title                             Number       Final Report Date   (in millions)
Postal Vehicle Service Transportation
Routes – Memphis Processing and                         NL-AR-07-003      3/30/2007                 $7.3
Distribution Center
Postal Vehicle Service Transportation –
                                                        NL-AR-07-006      9/21/2007                  4.9
Los Angeles Bulk Mail Center
Postal Vehicle Service Transportation
Routes – Milwaukee Processing and                       NL-AR-07-007      9/27/2007                  4.0
Distribution Center
Postal Vehicle Service Transportation
Routes – San Francisco Processing and                   NL-AR-08-003      3/26/2008                 10.1
Distribution Center
Postal Vehicle Service Transportation
Routes – Northern Virginia Processing and               NL-AR-08-006      9/25/2008                  8.0
Distribution Center
Postal Vehicle Service Transportation
Routes – Minneapolis Processing and                     NL-AR-09-001      2/13/2009                  9.3
Distribution Center
Postal Vehicle Service Transportation
                                                        NL-AR-09-005      7/17/2009                  4.3
Routes – Philadelphia Bulk Mail Center
Postal Vehicle Service Transportation
Routes – Philadelphia Processing and                    NL-AR-09-006      7/20/2009                  5.4
Distribution Center
                    Total                                                                         $53.55




5
    Total slightly higher due to rounding difference.




                                                          7
Postal Vehicle Service Transportation Routes –                                                      NL-AR-10-002
 Cardiss Collins Processing and Distribution Center


                               APPENDIX B: DETAILED ANALYSIS

Excess Workhours and Associated Cost Reductions

Cardiss Collins P&DC officials could more effectively manage PVS transportation
processes and schedules to ensure efficiency. We found PVS schedules the following:

          Unassigned time when drivers were not needed for a specific trip or related
           activity.

          Duplicate trips.

          Underutilized trips that management could have consolidated.

This resulted because managers were not conducting PVS schedule reviews as
required.6 In addition, given the dynamic and ever-changing transportation environment
and to maintain the effectiveness and efficiency of PVS operations, the Postal Service
requires management to perform vehicle utilization reviews at least annually to
determine vehicle need.7 According to Cardiss Collins P&DC management, they had
not routinely performed this type of review either.

We concluded the Cardiss Collins P&DC could reduce PVS workhours by 45,688 and
save about $18.3 million over 10 years without negatively affecting service. The Postal
Service would achieve more than 93 percent of the savings through personnel workhour
reductions; however, the Postal Service would also realize fuel cost and damage claim
savings, as depicted in Table 1.

                    Table 1. Potential Savings – Funds Put to Better Use
                           (Personnel, Fuel, and Damage Claims)

                        Fiscal Year (FY) 2010           FY 2011             10-Year Total9
    Cost Category         Total8 (Phased in)         (Annual) Total       (FY 2010 to 2019)       Percentage
    Personnel                          $995,455             $1,948,592           $17,113,329              93.7
    Fuel                                  57,489               56,212                 520,680               2.8
    Damage Claims                         71,075               69,290                 635,559               3.5

     Total                           $1,124,019             $2,074,093           $18,269,569               100


6
  Handbook PO-701, Fleet Management, March 1991, Chapter 23, requires PVS operations to perform vehicle
utilization reviews at least annually to maintain effectiveness and efficiency.
7
  Handbook PO-701, Chapter 23, Section 233, specifically requires annual completion of Postal Service (PS) Form
4575, Motor Vehicle Service (MVS) Vehicle Survey; PS Form 4572, Tractor Log; and PS Form 4569, Vehicle Use
Plan, to maintain effectiveness and efficiency.
8
  The FY 2010 figure is conservative to allow for phase-in of workhour reductions during the year.
9
  The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted to
present value by applying factors published by Postal Service Headquarters Finance.




                                                        8
Postal Vehicle Service Transportation Routes –                                          NL-AR-10-002
 Cardiss Collins Processing and Distribution Center



Further, the actions would help achieve fuel consumption goals in the Postal Service’s
National Energy Plan by reducing fuel use for Postal Service-owned vehicles.

Throughout our audit, we coordinated proposed schedule realignments with local
transportation managers. The managers reviewed each proposal in conjunction with
their own assessment of operational requirements, and we discussed any differences.
Management agreed to 43,264 of the 45,688 workhours we identified as unnecessary,
and we believe the remaining 2,424 workhours could produce savings without
jeopardizing on-time performance.

Other Matters – Safety Concerns

During our observations of PVS vehicles being loaded and unloaded at the Cardiss
Collins P&DC, we found that employees were securing up to 52 percent of these
vehicles’ loads of rolling stock of mail and equipment with single — instead of the
required double — restraints at the ends of their loads.




                                   A single restraint was used on this Cardiss
                                                Collins P&DC PVS
                           load of mail and equipment. Picture taken August 27, 2009.



Improperly restrained Postal Service mail and equipment can lead to accidents, damage
to property, undue liability, and unwarranted costs for the Postal Service.

In addition, during our observations of PVS vehicles parked at the dock, we found that
up to 67 percent of the trailers at the Cardiss Collins P&DC loading dock were not
chocked. We also found that 100 percent of the trailers at the colocated Chicago Truck




                                                      9
Postal Vehicle Service Transportation Routes –                                                       NL-AR-10-002
 Cardiss Collins Processing and Distribution Center

Terminal (CTT) were not chocked.10 Postal Service policies require PVS drivers to
approach the loading dock by backing the vehicle to the door or platform space, set the
brake, shut off the engine, and place the chock blocks behind the wheels. If chock
blocks are missing, the driver is to notify the expeditor or platform personnel.11 This
policy had not been enforced by local officials.




     Sign posted on the CTT load dock wall. Picture           None of the trailers observed at the CTT were
                 taken August 26, 2009.                         chocked. Picture taken August 26, 2009.




10
   During our observations of the CTT on August 26, 2009, we could not find any serviceable chock blocks (readily
available to drivers) outside.
11
   As required by the November 7, 2007, Standard Operating Procedures, Receiving and Dispatching Vehicles,
issued by the manager of Surface Operations.




                                                         10
Postal Vehicle Service Transportation Routes –                                                       NL-AR-10-002
 Cardiss Collins Processing and Distribution Center



                                APPENDIX C: MONETARY IMPACT

Excess Workhours and Associated Cost Reductions. The standard OIG practice for
calculations of this type employs a 10-year cash flow methodology, discounted to
present value by applying the following factors published by Postal Service
Headquarters Finance.

                          Fiscal Year (FY)                                                   10-Year Total
                            2010 Total12              FY 2011             FY 2012             (FY 2010 to
     Cost Category          (Phased in)            (Annual) Total      (Annual) Total            2019)
     Personnel                       $995,455           $1,948,592          $1,907,172           $17,113,329
     Fuel                               57,489               56,212              54,963               520,680
     Damage                             71,075               69,290              67,549               635,559
     Claims

      Total                        $1,124,019           $2,074,093          $2,029,684                       13
                                                                                               $18,269,569


                Rates by Type                                    Factor                    Published
      Discount Rate / Cost of Borrowing                        3.5 percent                  5/27/09
      Labor Escalation Rate                                    1.3 percent                  5/27/09
      Fuel Cost Escalation Rate                                1.2 percent                  5/27/09
      Tort Cost Claim Escalation Rate                          0.9 percent                  5/27/09




12
  The FY 2010 figure is conservative to allow for phase-in of workhour reductions during the year.
13
  Impact Category: Funds put to better use are funds that could be used more efficiently by implementing
recommended actions.




                                                        11
Postal Vehicle Service Transportation Routes –              NL-AR-10-002
 Cardiss Collins Processing and Distribution Center


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                      12
Postal Vehicle Service Transportation Routes –             NL-AR-10-002
 Cardiss Collins Processing and Distribution Center




                                                      13
